Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Medicare Reimbursement of
   End Stage Renal Disease Drugs




                   JUNE GIBBS BROWN
                    Inspector General

                        JUNE 2000
                      OEI-03-00-00020
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

David Tawes, Project Leader	                         Stuart Wright, Program Specialist
                                                     Scott Horning, Technical Support Staff
                                                     Linda Moscoe, Technical Support Staff
                                                     Brian Ritchie, Technical Support Staff



 To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
         Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                      EXECUTIVE                        SUMMARY

PURPOSE

         This inspection compares Medicare payment amounts for end stage renal disease drugs
         (ESRD) with amounts paid by Medicaid and the Department of Veterans Affairs.


BACKGROUND

         Generally, Medicare does not pay for most over-the-counter or outpatient prescription
         drugs. However, Medicare Part B does cover certain drugs furnished by independent
         dialysis facilities. These drugs must be medically necessary and be included in the list of
         “separately billable drugs” found in the Renal Dialysis Facility Manual, Section 318.1.
         Medicare’s total charges for ESRD drugs provided by independent dialysis facilities
         exceeded $1.4 billion in 1998.

         Prescription drugs furnished by independent dialysis facilities are reimbursed by Medicare
         fiscal intermediaries from the Medicare Part B fund. In general, a covered drug is
         reimbursed at 95 percent of the drugs’ average wholesale price (AWP). Medicare
         beneficiaries are responsible for a 20 percent copayment. State Medicaid agencies have
         the authority to develop their own reimbursement methodology for outpatient prescription
         drugs under the pharmacy benefit. Like Medicare, most Medicaid agencies use AWP as
         the basis for calculating their drug reimbursement amounts. Additionally, drug
         manufacturers are required by law to enter into rebate agreements with Medicaid in order
         to participate in the program. Unlike Medicare and Medicaid, the Department of Veterans
         Affairs (VA) purchases drugs for its healthcare system directly from manufacturers or
         wholesalers. There are several purchase options available to the VA, including the Federal
         Supply Schedule, Blanket Purchase Agreements, and VA national contracts.

         We focused our inspection on just five drug codes, which accounted for $379 million in
         total charges to Medicare in 1998. We compared Medicare’s fourth quarter 1999
         reimbursement amounts for these drugs to Medicaid amounts and VA acquisition costs.


FINDINGS

Medicare allowed amounts would be nearly halved for five ESRD drugs if
amounts were based on VA acquisition costs

         Medicare allowed amounts during the fourth quarter of 1999 were greater that the VA
         acquisition costs for the five drugs reviewed. For two drugs, Medicare allowed amounts

Medicare Reimbursement of ESRD Drugs               1                                     OEI-03-00-00020
         were more than double the VA’s contracted price. Medicare would save between 37 and
         56 percent for each of the five drugs if its allowed amounts were equal to VA acquisition
         costs.

Medicare would save between 5 and 38 percent for five ESRD drugs if its allowed
amounts were equal to Medicaid reimbursement including rebates

         Medicare allowed amounts were greater than Medicaid amounts for each of the five
         reviewed drugs during the fourth quarter of 1999. Medicaid amounts include any rebates
         calculated for the drugs. Medicare allowed amounts exceeded Medicaid amounts by a
         only a small percentage for two of the drugs since Medicaid agencies did not receive
         rebates for these specific products. For two drugs, the Medicaid amount was
         approximately one-third less than the Medicare allowed amount.

While we were able to determine percentage differences between the Medicare allowed amounts
and other agencies’ costs for the reviewed drugs, we could not prepare a precise estimate of
dollar savings. The only reimbursement information available to us represented the total amount
billed to Medicare for ESRD drugs and not the total amount which was paid. However, if the
percentage savings that we calculated for each drug were applied to Medicare’s total charges (i.e.,
the amount billed), then Medicare could have saved up to $42 million in 1998 if their allowed
amounts equaled Medicaid amounts. Medicare could have saved up to $162 million in 1998 if
their allowed amounts equaled VA acquisition costs. Because total charges are often inflated, we
recognize that the estimates provided are the most that Medicare could have possibly saved.
However, even if the savings did not reach these maximum levels, the potential savings would still
be substantial.



RECOMMENDATION

         The Department of Veterans Affairs (VA) purchases drugs for its healthcare system
         directly from manufacturers or wholesalers. Conversely, Medicare and Medicaid
         reimburse doctors and suppliers for drugs which they administer or supply to beneficiaries.
         We recognize that the Health Care Financing Administration (HCFA), Medicaid, and the
         VA operate under different statutory constraints. Nevertheless, the fact remains that other
         government entities can get certain prescription drugs at drastically lower prices than
         Medicare.

         Our current findings provide further support for recommendations made in earlier reports.
         We previously recommended, and HCFA concurred, that HCFA re-examine its Medicare
         drug reimbursement methodologies with the goal of reducing payments as appropriate.
         We outlined a number of options for implementing this recommendation, including: (1)
         greater discounting of published average wholesale prices, (2) basing payment on
         acquisition costs, (3) establishing manufacturers’ rebates similar to those used in the
         Medicaid program, and (4) using competitive bidding.

Medicare Reimbursement of ESRD Drugs              2                                   OEI-03-00-00020
         We continue to support the need for lower drug prices for the Medicare program and its
         beneficiaries. We realize, however, that HCFA’s power to lower drug prices through the
         use of its inherent reasonableness authority was recently limited by a provision of the
         Medicare, Medicaid and SCHIP Balanced Budget Refinement Act of 1999. Therefore, we
         recommend that HCFA press for legislative efforts which would (1) immediately lower the
         price of these five ESRD drugs, (2) use the Federal Supply Schedule (FSS) as a basis for
         developing Medicare allowed amounts, or (3) reform the current drug pricing
         methodology in another manner which would substantially lower unreasonable
         prescription drug prices.

Agency Comments

         The HCFA concurred with our recommendation, noting that basing reimbursement on
         acquisition cost is probably the best way to ensure that Medicare pays fair prices for
         covered drugs. Additionally, HCFA gave a detailed account of their numerous attempts
         to lower unreasonable drug reimbursement amounts in the Medicare program. Currently,
         HCFA plans to utilize a number of more accurate drug prices developed by First
         Databank, publisher of a pricing compendium used by the pharmaceutical industry. HCFA
         requested that Medicare contractors use these prices when calculating their drug
         reimbursement amounts. The HCFA also commented that they are working to develop a
         comprehensive electronic file on the pricing of Medicare covered drugs, and are
         continuing a competitive bidding demonstration project for albuterol in Texas. In
         addition, HCFA is consulting with the Department of Justice and the Office of Inspector
         General on the feasibility of developing additional means to ensure that accurate drug
         pricing data is used in setting Medicare reimbursement rates. The full text of HCFA’s
         comments is presented in Appendix D.

         We commend HCFA’s efforts to lower Medicare drug reimbursement rates. We fully
         support attempts to obtain more accurate prices for the Medicare program. We believe
         that HCFA’s request that Medicare contractors use the more accurate prices supplied by
         First Databank is a significant first step towards reimbursing drugs in a more appropriate
         manner.




Medicare Reimbursement of ESRD Drugs              3                                    OEI-03-00-00020
                             TABLE                    OF            CONTENTS

                                                                                                                        PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


          Medicare payments compared to VA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Medicare payments compared to Medicaid . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDICES


          A. Previous OIG Reports on Medicare Drug Reimbursement . . . . . . . . . . . . . . . . . . . 14


          B. Description of HCPCS Codes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          C. State Medicaid Outpatient Drug Pricing Methodologies . . . . . . . . . . . . . . . . . . . . . 17


          D. Health Care Financing Administration Comments . . . . . . . . . . . . . . . . . . . . . . . . . . 19





Medicare Reimbursement of ESRD Drugs                            4                                               OEI-03-00-00020
                                 INTRODUCTION

PURPOSE

         This inspection compares Medicare payment amounts for end stage renal disease (ESRD)
         drugs with amounts paid by Medicaid and the Department of Veterans Affairs.


BACKGROUND

Medicare Coverage of ESRD Drugs

         Generally, Medicare does not pay for most over-the-counter or outpatient prescription
         drugs. However, under specific circumstances, Medicare Part B will cover drugs used in
         association with organ transplantations, chemotherapy, durable medical equipment,
         infusion devices, and vaccinations. Additionally, Medicare Part B covers certain drugs
         furnished by independent dialysis facilities that are not included in the ESRD composite
         rate payment. These drugs must be medically necessary and be included in the list of
         “separately billable drugs” found in the Renal Dialysis Facility Manual, Section 318.1.

         The ESRD facility composite rate payment includes almost all per treatment costs for an
         ESRD patient and is paid by fiscal intermediaries from the Part A fund. Separately billable
         ESRD drugs furnished by independent dialysis facilities are reimbursed by fiscal
         intermediaries from the Part B fund.

         Medicare’s total charges for ESRD drugs provided by independent dialysis facilities
         exceeded $1.4 billion in 1998. This figure represents the amount which was billed to
         Medicare.

Medicare Drug Reimbursement

         The Health Care Financing Administration (HCFA), which administers the Medicare
         program, has required Medicare Part B carriers to calculate payment allowances for
         covered drugs. To ensure uniform pricing, Part B carriers are then required to furnish the
         allowed amounts for the drugs to the Part A intermediaries operating in their jurisdiction.

         Medicare’s current reimbursement methodology for prescription drugs is defined by
         Section 4556 of the Balanced Budget Act of 1997. Carriers base their payment amount
         for a drug on its average wholesale price (AWP) as published in Drug Topics Red Book or
         similar pricing publications used by the pharmaceutical industry. If a drug is available only
         in brand form, reimbursement is calculated by taking 95 percent of the drug’s AWP. If a
         drug has both brand and generic sources available, reimbursement is based on 95 percent
         of the median AWP for generic sources. However, if a brand name product’s

Medicare Reimbursement of ESRD Drugs               5                                    OEI-03-00-00020
         AWP is lower than the median generic price, Medicare reimburses 95 percent of the

         lowest brand price. Medicare beneficiaries are responsible for a 20 percent copayment for

         covered drugs.


         Section 4316 of the Balanced Budget Act of 1997 allows HCFA to diverge from the

         statutorily defined payment method if the method results in payment amounts which are

         not inherently reasonable. However, HCFA’s ability to use its inherent reasonableness

         authority was recently limited by a provision of the Medicare, Medicaid and SCHIP

         Balanced Budget Refinement Act of 1999. In short, this provision requires that before

         HCFA can invoke this authority, a study must be performed by the Comptroller General to

         determine the potential effects of utilizing inherent reasonableness measures. 

         Furthermore, the criteria used in identifying excessive payments must be re-evaluated, and

         its validity and reliability ensured. 


Medicaid Drug Reimbursement

         Each State Medicaid agency has the authority to develop its own reimbursement
         methodology, subject to upper limits set by HCFA. Like Medicare, most Medicaid
         agencies use AWP as the basis for calculating their reimbursement amounts for outpatient
         drugs. However, Medicaid agencies generally use a more deeply discounted AWP than
         does Medicare.

         Additionally, drug manufacturers are required by Federal law to enter into rebate
         agreements with Medicaid in order to be eligible for Medicaid reimbursement of their
         products. While most drugs are subject to these requirements, certain products, such as
         vaccines, which meet specific statutory guidelines are exempt from rebates.

         In 1999, the quarterly rebate for brand-name drugs was based on either 15.1 percent of
         the average manufacturer price (AMP) or the difference between the AMP and the best
         price, whichever was greater. The AMP is the average price paid by wholesalers for
         products distributed for retail trade. Best price is the lowest price paid by any purchaser
         with the exception of Federal agencies and State pharmaceutical assistance programs. The
         rebate amount for generic drugs was 11 percent of AMP.

Department of Veterans Affairs Drug Reimbursement

         Unlike Medicare and Medicaid, the Department of Veterans Affairs (VA) purchases drugs
         for its healthcare system directly from manufacturers or wholesalers. There are several
         purchase options available to the VA, including the Federal Supply Schedule, Blanket
         Purchase Agreements, and VA national contracts.

         The Federal Supply Schedule provides agencies like the VA with a simple process for
         purchasing commonly used products in various quantities while still obtaining the
         discounts associated with volume buying. Using competitive procedures, contracts are
         awarded to companies to provide services and supplies over a given period of time.
         Although the General Services Administration awards most Federal Supply Schedule

Medicare Reimbursement of ESRD Drugs              6                                   OEI-03-00-00020
         contracts, the VA awards contracts for certain medical items. Agencies are not required
         to use the Federal Supply Schedule, however, and are sometimes able to negotiate prices
         lower than the Federal Supply Schedule price.

Related Work by the Office of Inspector General

         The Office of Inspector General (OIG) has previously studied a number of issues related
         to Medicare prescription drug reimbursement. Brief summaries of selected studies are
         presented in Appendix A.


METHODOLOGY

Medicare Charges for Prescription Drugs

         To determine total Medicare charges for ESRD drugs, we compiled a list of revenue
         center codes representing drugs covered by Medicare in 1998. Revenue center codes are
         codes which facilities use to define the product or service provided. We selected 1998
         because it was the most recent year with complete data in HCFA’s National Claims
         History file. We then determined the Medicare total charges and services billed by
         independent dialysis facilities for each of these revenue center codes. We aggregated the
         charges for the individual revenue center codes in order to determine total Medicare
         charges for ESRD drugs provided by independent dialysis facilities in 1998.

         Medicare Part B’s total charges for ESRD drugs furnished by independent dialysis
         facilities totaled more than $1.4 billion in 1998. Approximately $1 billion of the total
         charges were for epoetin alfa (revenue center codes 0634 and 0635). We decided to
         exclude epoetin alfa from our review because its pricing had been previously reviewed by
         our Office of Audit Services. Nearly all of remaining charges were made using revenue
         center code 0636, defined as “drugs requiring specific identification--detailed coding.”
         Drugs billed using this revenue center code are specifically identified using the HCFA
         Common Procedure Coding System (HCPCS). A HCPCS code defines the type of drug
         billed, and in most cases, a dosage amount. Using the National Claims History file, we
         determined that in 1998, five HCPCS codes accounted for $379 million (90 percent) of
         the $424 million in total charges for revenue center code 0636. A list of the reviewed
         HCPCS codes along with their definitions is presented in Appendix B.

Medicare Pricing for ESRD Drugs

         Because Medicare does not have uniform national allowed amounts for prescription drugs,
         we collected payment information from individual contractors. We obtained Medicare
         drug payment amounts for the five contractors with the highest charges for ESRD drugs in
         1998: Trailblazer Health Enterprises of Texas, Blue Cross and Blue Shield of Georgia,
         Blue Cross of California, Blue Cross and Blue Shield of Florida, and Empire Blue Cross



Medicare Reimbursement of ESRD Drugs             7                                    OEI-03-00-00020
         and Blue Shield of New York. To determine a single Medicare allowed amount, we
         calculated median prices for each HCPCS code based on the information provided.

Matching HCPCS Codes to National Drug Codes

         Unlike Medicare, Medicaid and the VA use national drug codes (NDCs) rather than
         HCPCS codes to identify drugs products. Each drug manufactured or distributed in the
         United States has a unique NDC. The NDCs identify the manufacturer of the drug, the
         product dosage form, and the package size. From the NDCs, the drugs can be identified
         as either brand or generic.

         Because of these coding differences, we used Drug Topics Red Book to identify the
         specific NDCs that would match the HCPCS code definition for each of the five drugs in
         our review. For each drug, we selected the NDCs which met the exact dosage and
         administration method delineated in the HCPCS code description. When this was not
         possible, we chose NDCs with dosage amounts for which a conversion factor to the
         HCPCS definition could be readily determined. Four of the five HCPCS codes had only
         one NDC which met our matching criteria. One HCPCS code had three matching NDCs.

Medicaid Pricing of ESRD Drugs

         For our comparison, we used Medicaid reimbursement for prescription drugs under each
         state’s pharmacy benefit. We gathered this information from the publication
         Pharmaceutical Benefits under State Medical Assistance Programs, December 1998 to
         determine each Medicaid agency’s reimbursement methodology for outpatient prescription
         drugs. Forty-five of the 51 agencies utilized pricing methodologies that were based on
         AWP. The remaining six agencies priced their drugs using more complicated methods and
         were eliminated from our review. We arrayed the remaining 45 Medicaid agencies by the
         amount that their pricing methodology discounted AWP. We then calculated the mean
         (9.87 percent), median (10 percent), and modal (10 percent) AWP discounts. A complete
         list of each Medicaid agency’s pricing methodology is presented in Appendix C.

         We used Drug Topics Red Book October 1999 Update to determine the fourth quarter
         1999 AWP of the selected codes. We then determined base Medicaid prices for the five
         drugs by reducing the AWP by the median discount of 10 percent, recognizing that some
         States may pay slightly more and others slightly less. If the NDC dosage of the drug did
         not exactly match the HCPCS dosage, we multiplied the base Medicaid price by a
         conversion factor so that the Medicaid and Medicare prices would be for equal amounts of
         the drug.

         We accessed the Medicaid Drug Rebate Initiative system to ascertain the Medicaid rebate
         amounts for each of the drugs. We used the most recent rebate amounts available for each
         NDC code, which in most cases was the third quarter of 1999. For the one drug which
         had multiple NDC matches, we chose the most conservative rebate amount. Additionally,
         Medicaid did not receive rebates for two of the drugs. For three NDCs, the


Medicare Reimbursement of ESRD Drugs            8                                   OEI-03-00-00020
         listed rebate was a for a dosage amount which was not equal to the HCPCS dosage
         amount. In these cases, a conversion factor was used to calculate a rebate amount for the
         HCPCS dosage. For each drug, we calculated a new Medicaid price by subtracting any
         rebate amounts from the base Medicaid price.

VA Pricing of ESRD Drugs

         To determine the VA’s fourth quarter 1999 acquisition costs for the drugs in our review,
         we obtained a file from the VA containing their contracted acquisition costs. We looked
         up the corresponding contract price for each of the drugs by NDC code. For the drug
         which had multiple NDC matches, we took the highest VA price for the drug. We used
         the Federal Supply Schedule price for comparison purposes.

         If the NDC dosage of the drug did not exactly match the HCPCS dosage, we multiplied
         the contracted price by a conversion factor so that the VA and Medicare prices would be
         for equal amounts of the drug.

Calculating Potential Medicare Savings

         To calculate potential Medicare savings, we compared the Medicare, Medicaid, and VA
         prices. For each drug, we determined the percentage difference between the Medicare
         payment amount and the other agencies’ payment amounts. This percentage indicated
         how much Medicare could have saved on each of the drugs if their payment amounts
         equaled amounts paid by Medicaid and the VA.




Medicare Reimbursement of ESRD Drugs             9                                   OEI-03-00-00020
                                        FINDINGS

Medicare allowed amounts would be nearly halved for five
ESRD drugs if amounts were based on VA acquisition costs
         Medicare allowed amounts during the fourth quarter of 1999 were greater than VA
         acquisition costs for the five drugs reviewed. For two drugs, levocarnitine and the
         hepatitis B vaccine, Medicare allowed amounts were more than double the VA’s
         contracted price. Medicare would save between 37 and 56 percent for each of the five
         drugs if its allowed amounts were equal to VA acquisition costs. Table 1 provides the
         reviewed drugs, their comparative costs to Medicare and the VA, and potential Medicare
         savings.


                    Table 1: Medicare and VA Drug Payment Amounts
                                               Medicare            VA              Potential
          HCPCS               Generic          Allowed          Acquisition        Medicare
           Code              Drug Name         Amount              Cost            Savings

            J0635       Calcitriol               $12.83            $8.10             36.9%

            J1760       Iron Dextran             $35.82            $19.41            45.8%

            J1955       Levocarnitine            $34.20            $15.08            55.9%

            J3364       Urokinase                $56.61            $31.70            44.0%

            90747       Hepatitis B Vaccine     $172.23            $84.36            51.0%




Medicare would save between 5 and 38 percent for five
ESRD drugs if its allowed amounts were equal to Medicaid
reimbursement including rebates
         Medicare allowed amounts were greater than Medicaid amounts for each of the five
         reviewed drugs during the fourth quarter of 1999. Medicaid amounts include any rebates
         that were calculated for the drugs. Medicare allowed amounts exceeded Medicaid
         amounts by a only a small percentage for two of the drugs, calcitriol and the hepatitis B


Medicare Reimbursement of ESRD Drugs             10                                   OEI-03-00-00020
         vaccine, because Medicaid agencies did not receive rebates for these specific products.
         For two drugs, levocarnitine and urokinase, the Medicaid amount was approximately one-
         third less than the Medicare allowed amount. Table 2 provides the reviewed drugs, their
         comparative costs to Medicare and Medicaid, and potential Medicare savings.


                    Table 2: Medicare and Medicaid Payment Amounts
                                              Medicare         Medicaid           Potential
          HCPCS               Generic         Allowed         Amounts with        Medicare
           Code              Drug Name        Amount            Rebate            Savings

            J0635       Calcitriol              $12.83            $12.15             5.3%

            J1760       Iron Dextran            $35.82            $31.77            11.3%

            J1955       Levocarnitine           $34.20            $23.85            30.3%

            J3364       Urokinase               $56.61            $35.23            37.8%

            90747       Hepatitis B Vaccine    $172.23           $163.17             5.3%




While we were able to determine percentage differences between the Medicare allowed amounts
and other agencies’ costs for the reviewed drugs, we could not prepare a precise estimate of
dollar savings. The only reimbursement information available to us represented the total amount
billed to Medicare for ESRD drugs and not the total amount which was paid. However, if the
percentage savings that we calculated for each drug were applied to Medicare’s total charges (i.e.,
the amount billed), then Medicare could have saved up to $42 million in 1998 if their allowed
amounts equaled Medicaid amounts. Medicare could have saved up to $162 million in 1998 if
their allowed amounts equaled VA acquisition costs. Because total charges are often inflated, we
recognize that the estimates provided are the most that Medicare could have possibly saved.
However, even if the savings did not reach these maximum levels, the potential savings would still
be substantial.




Medicare Reimbursement of ESRD Drugs            11                                   OEI-03-00-00020
                            RECOMMENDATION

         The Department of Veterans Affairs (VA) purchases drugs for its healthcare system
         directly from manufacturers or wholesalers. Conversely, Medicare and Medicaid
         reimburse doctors and suppliers for drugs which they administer or supply to beneficiaries.
         We recognize that the Health Care Financing Administration (HCFA), Medicaid, and the
         VA operate under different statutory constraints. Nevertheless, the fact remains that other
         government entities can get certain prescription drugs at drastically lower prices than
         Medicare.

         Our current findings provide further support for recommendations made in earlier reports.
         We previously recommended, and HCFA concurred, that HCFA re-examine its Medicare
         drug reimbursement methodologies with the goal of reducing payments as appropriate.
         We outlined a number of options for implementing this recommendation, including: (1)
         greater discounting of published average wholesale prices, (2) basing payment on
         acquisition costs, (3) establishing manufacturers’ rebates similar to those used in the
         Medicaid program, and (4) using competitive bidding.

         We continue to support the need for lower drug prices for the Medicare program and its
         beneficiaries. We realize, however, that HCFA’s power to lower drug prices through the
         use of its inherent reasonableness authority was recently limited by a provision of the
         Medicare, Medicaid and SCHIP Balanced Budget Refinement Act of 1999. Therefore, we
         recommend that HCFA press for legislative efforts which would (1) immediately lower the
         price of these five ESRD drugs, (2) use the Federal Supply Schedule (FSS) as a basis for
         developing Medicare allowed amounts, or (3) reform the current drug pricing
         methodology in another manner which would substantially lower unreasonable
         prescription drug prices.

Agency Comments

         The HCFA concurred with our recommendation, noting that basing reimbursement on
         acquisition cost is probably the best way to ensure that Medicare pays fair prices for
         covered drugs. Additionally, HCFA gave a detailed account of their numerous attempts
         to lower unreasonable drug reimbursement amounts in the Medicare program. Currently,
         HCFA plans to utilize a number of more accurate drug prices developed by First
         Databank, publisher of a pricing compendium used by the pharmaceutical industry. HCFA
         requested that Medicare contractors use these prices when calculating their drug
         reimbursement amounts. The HCFA also commented that they are working to develop a
         comprehensive electronic file on the pricing of Medicare covered drugs, and are
         continuing a competitive bidding demonstration project for albuterol in Texas. In
         addition, HCFA is consulting with the Department of Justice and the Office of Inspector
         General on the feasibility of developing additional means to ensure that accurate drug
         pricing data is used in setting Medicare reimbursement rates. The full text of HCFA’s
         comments is presented in Appendix D.

Medicare Reimbursement of ESRD Drugs             12                                   OEI-03-00-00020
OIG Response

         We commend HCFA’s efforts to lower Medicare drug reimbursement rates. We fully
         support attempts to obtain more accurate prices for the Medicare program. We believe
         that HCFA’s request that Medicare contractors use the more accurate prices supplied by
         First Databank is a significant first step towards reimbursing drugs in a more appropriate
         manner.




Medicare Reimbursement of ESRD Drugs             13                                    OEI-03-00-00020
                                                                     APPENDIX                 A


    Previous OIG Reports on Medicare Drug Reimbursement
Comparing Drug Reimbursement: Medicare and the Department of Veterans Affairs

(OEI-03-97-00293), November 1998. We found that Medicare and its beneficiaries would save

$1 billion in 1998 if the allowed amounts for 34 drugs were equal to prices obtained by the VA. 

Furthermore, Medicare allowed between 15 and 1600 percent more than the VA for the 34 drugs

reviewed.


Are Medicare Allowances for Albuterol Sulfate Reasonable? (OEI-03-97-00292), 

August 1998. We found that Medicare would allow between 56 to 550 percent more than the

VA would pay for generic versions of albuterol sulfate in 1998, and 20 percent more than the

average Medicaid payment for albuterol sulfate in 1997. Additionally, Medicare allowed 333

percent more than available acquisition costs for the drug in 1998. Customers of mail-order

pharmacies would pay up to 30 percent less than Medicare for albuterol sulfate in 1998. 


The Impact of High-Priced Generic Drugs on Medicare and Medicaid (OEI-03-97-00510),

July 1998. We found that Medicare and its beneficiaries could have saved between $5 million

and $12 million for four drugs if reimbursement had not been based on higher-priced generic

versions. Florida’s Medicaid program would have saved half a million dollars for eight drugs in

1996 if higher-priced generic drugs had been reimbursed at brand prices.


Excessive Medicare Payments for Prescription Drugs (OEI-03-97-00290), December 1997. 

We found that Medicare allowances for 22 drugs exceeded actual wholesale prices by $447

million in 1996. For more than one-third of the 22 drugs reviewed, Medicare allowed amounts

were more than double the actual wholesale prices available to physicians and supplers. 

Furthermore, we found that there was no consistency among Medicare carriers in establishing and

updating drug reimbursement amounts. 


Appropriateness of Medicare Prescription Drug Allowances (OEI-03-96-00420), May 1996. 

We found that under a drug rebate program similar to Medicaid’s, Medicare would have saved

$122 million for 17 prescription drugs in 1994. Medicare could have saved an additional $144

million in 1994 had the program employed a discounted AWP drug reimbursement formula. We

also found that the lack of an NDC-based billing system would prevent HCFA from taking

advantage of rebates and other discounted reimbursement formulas.


A Comparison of Albuterol Sulfate Prices (OEI-03-94-00392), June 1996. We found that

many of the pharmacies surveyed charged customers less than the Medicare allowed amount for

generic albuterol sulfate. The five buying groups surveyed had negotiated prices between 56 and

70 percent lower than Medicare’s reimbursement amount for the drug.





Medicare Reimbursement of ESRD Drugs           14                                   OEI-03-00-00020
                                                                      APPENDIX                  A


Suppliers’ Acquisition Costs for Albuterol Sulfate (OEI-03-94-00393), June 1996. We found
that Medicare’s allowances for albuterol sulfate substantially exceeded suppliers’ acquisition costs
for the drug, and that the program could have saved $94 million during the 14-month review
period if Medicare reimbursement amounts had been based on average supplier invoice costs.

Medicare Payments for Nebulizer Drugs (OEI-03-94-00390), February 1996. We found that
Medicare and its beneficiaries paid about $37 million more for three nebulizer drugs in 17 states
than Medicaid would have paid for equivalent drugs. In addition, we found that the potential
savings were not limited to the three nebulizer drugs and 17 states which were reviewed.




Medicare Reimbursement of ESRD Drugs            15                                    OEI-03-00-00020
                                                                             APPENDIX                   B


                              Description of HCPCS Codes



                    HCPCS                    Generic           Method of           Dosage
                     Code                     Name           Administration        Amount
                     J0635             Calcitriol                Injection          1 mcg
                     J1760             Iron Dextran              Injection           2 cc
                     J1955             Levocarnitine             Injection            1g
                     J3364             Urokinase                 Injection         5000 iu
                     90747             Hepatitis B Vaccine       Injection         40 mcg1


         1
          The dosage amount for HCPCS code 90747 is defined as “dialysis or immuno-suppressed patient
         dosage,” which according to the Physician’s Desk Reference, is equal to 40 mcg.




Medicare Reimbursement of ESRD Drugs                   16                                     OEI-03-00-00020
                                                                                 APPENDIX                      C


        State Medicaid Outpatient Drug Pricing Methodologies


 State                  Reimbursement Basis
 Alabama                WAC plus 9.2%

 Alaska                 AWP minus 5%

 Arizona                AWP minus 10%

 Arkansas               AWP minus 10.5%

 California             AWP minus 5%

 Colorado               AWP minus 10% or WAC plus 18%

 Connecticut            AWP minus 12%

 Delaware               AWP minus 12.9%

 District of Columbia   AWP minus 10%

 Florida                WAC plus 7%

 Georgia                AWP minus 10%

 Hawaii                 AWP minus 10.5%

 Idaho                  AWP

 Illinois               AWP minus 10% for single-source drugs, AWP minus 12% for multi-source drugs

 Indiana                AWP minus 10%

 Iowa                   AWP minus 10%

 Kansas                 AWP minus 10%

 Kentucky               AWP minus 10%

 Louisiana              AWP minus 10.5%

 Maine                  AWP minus 10%

 Maryland               WAC plus 10%

 Massachusetts          WAC plus 10%

 Michigan               AWP minus 13.5% or AWP minus 15.1%

 Minnesota              AWP minus 9%

 Mississippi            AWP minus 10%

 Missouri               AWP minus 10.43%



Medicare Reimbursement of ESRD Drugs                    17                                            OEI-03-00-00020
                                                                            APPENDIX                   C


 State                  Reimbursement Basis

 Montana                AWP minus 10%

 Nebraska               AWP minus 8.71%

 Nevada                 AWP minus 10%

 New Hampshire          AWP minus 12%

 New Jersey             AWP minus 10%

 New Mexico             AWP minus 12.5%

 New York               AWP minus 10%

 North Carolina         AWP minus 10%

 North Dakota           AWP minus 10%

 Ohio                   AWP minus 11%

 Oklahoma               AWP minus 10.5%

 Oregon                 AWP minus 11%

 Pennsylvania           AWP minus 10%

 Rhode Island           WAC plus 5%

 South Carolina         AWP minus 10%

 South Dakota           AWP minus 10.5%

 Tennessee              Individual managed-care and pharmacy benefit management organizations determine
                        price

 Texas                  AWP minus 10.49% or WAC plus 12%

 Utah                   AWP minus 12%

 Vermont                AWP minus 10%

 Virginia               AWP minus 9%

 Washington             AWP minus 11%

 West Virginia          AWP minus 12%

 Wisconsin              AWP minus 10%

 Wyoming             AWP minus 4%
WAC=wholesalers acquisition cost; AWP=average wholesale price

Source: Pharmaceutical Benefits Under State Medical Assistance Programs, December 1998


Medicare Reimbursement of ESRD Drugs                  18                                      OEI-03-00-00020
                                                                     APPENDIX                 D



           Health Care Financing Administration Comments

         In this appendix, we present, in full, comments from the Health Care Financing
         Administration.




Medicare Reimbursement of ESRD Drugs            19                                   OEI-03-00-00020
                                            APPENDIX       D




Medicare Reimbursement of ESRD Drugs   20         OEI-03-00-00020
                                            APPENDIX       D




Medicare Reimbursement of ESRD Drugs   21         OEI-03-00-00020
                                            APPENDIX       D




Medicare Reimbursement of ESRD Drugs   22         OEI-03-00-00020
                                            APPENDIX       D




Medicare Reimbursement of ESRD Drugs   23         OEI-03-00-00020
                                            APPENDIX       D




Medicare Reimbursement of ESRD Drugs   24         OEI-03-00-00020
